Document: 10-1

Case: 21-1313

Filed: 04/29/2021

Pages: 1

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Office of the Qerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

Everett McKinley Dirksen United States Courthouse
Room 2722 • 219 S. Dearborn Street
Chicago, Illinois 60604

PLRA C.R. 3(b) FINAL ORDER
April 29,2021
KEVIN L. MARTIN,
Plaintiff - Appellant
No. 21-1313

v.
KENNETH P. COTTER, et al.,
Defendants - Appellees

Originating Case Information:
District Court No: 3:18-cv-00900-DRL-MGG
Northern District of Indiana, South Bend Division
District Judge Damon R. Leichty
The pro se appellant was DENIED leave to proceed on appeal in forma pauperis by the
appellate court on April 29, 2021 and was given fourteen (14)days to pay the $505.00 filing
fee. The pro se appellant has not paid the $505.00 appellate fee. Accordingly,
IT IS ORDERED that this appeal is DISMISSED for failure to pay the required docketing
fee pursuant to Circuit Rule 3(b).
IT IS FURTHER ORDERED that the appellant pay the appellate fee of $505.00 to the clerk
of the district court. The clerk of the district court shall collect the appellate fees from the
prisoner's trust fund account using the mechanism of Section 1915(b). Newlin v. Helman, 123
F.3d 429, 433 (7th Cir. 1997).

form name: c7_PLRA_3bFinalOrder(form ID: 142)

r USDC IN/ND case 3:18-cv-00900-DRL-MGG document 20 filed 02/03/21 page 1 of 4

UNITED STATES DISTRICT COURT ■
NORTHERN DISTRICT OF INDIANA
SOUTH BEND DIVISION
KEVIN L. MARTIN,
Plaintiff,
CAUSE NO. 3:18-CV-900 DRL-MGG

v.
KENNETH P. COTTER et al,
Defendants.

OPINION AND ORDER
Kevin L. Martin, a prisoner without a lawyer, filed a motion to alter or amend
judgment. Because it was ostensibly signed and then submitted within 28 days of
dismissal,1 the court construes it as a motion to alter the judgment under Federal Rule of
Civil Procedure 59(e). See Erickson v. Pardus, 551 U.S. 89, 94 (2007); Banks v. Chicago Bd. of
Educ., 750 F.3d 663, 666 (7th Cir. 2014). "Altering or amending a judgment under Rule
59(e) is permissible when there is newly discovered evidence or there has been a manifest
error of law or fact." Harrington v. City of Chicago, 433 F.3d 542, 546 (7th Cir. 2006).
Here, Mr. Martin has presented no newly discovered evidence or demonstrated a
manifest error of fact or law. In his complaint, Mr. Martin alleged that Prosecuting

1 The dismissal order was entered on November 15,2019 (ECF14), and the judgment was entered
on November 18, 2019 (ECF 15). The motion to alter or amend judgment was not docketed until
May 12,2020 (ECF 16). However, Mr. Martin states that he electronically filed the document with
the court on November 25,2019, using the CM/ECF system at the Westville Correctional Facility.
ECF 11 at 11; see also ECF 16-1 (notice to the court stating that he placed the motion in Caseworker
White's hand on November 25, 2019, to be e-filed). Although Mr. Martin provides no plausible
explanation for the almost five-and-a-half-month delay in processing, in the interests of justice,
the court will give Mr. Martin the benefit of the prison mailbox rule and evaluate his motion
under the Rule 59 standards. See Edwards v. United States, 266 F.3d 756, 758 (7th Cir. 2001).

* USDC IN/ND case 3:18-cv-00900-DRL-MGG document 20 filed 02/03/21 page 3 of 4

request for injunctive relief is concerned, he may not bring such claims in a civil rights
action. Mr. Martin repeatedly asserts that he is seeking exculpatory evidence that was
allegedly withheld by Mr. Cotter and his own defense attorneys. However, as noted in
this court's previous order, "Brady claims have ranked within the traditional core of
habeas corpus and outside the province of § 1983." Skinner v. Switzer, 562 U.S. 521, 536
(2011). The court in Skinner analyzed the difference between evidence like post-trial DNA
testing—which can be sought in a civil rights action—and alleged Brady materials which
cannot. Id. "Unlike DNA testing, which may yield exculpatory, incriminating, or
inconclusive results, a Brady claim, when successful postconviction, necessarily yields
evidence undermining a conviction: Brady evidence is, by definition, always favorable to
the defendant and material to his guilt or punishment." Id. at 536-37 (citing Heck v,
" Humphrey, 512 U.S. 477, 490 (1994) (a claim that prosecutors and an investigator had
destroyed evidence that was "exculpatory in nature" could not be brought pursuant to §
1983) and Amaker v. Weiner, 179 F.3d 48, 51 (2d Cir. 1999) (holding that a prisoner's claim
that he was denied "meaningful access to the courts" by the withholding of exculpatory
evidence was not valid under § 1983 because it "sounds under Brady v. Maryland" and
"does indeed call into question the validity of his conviction")). Mr. Martin cites to
Strickler v. Greene, 527 U.S. 263, 281-82 (1999) to support his position, but that case
involved a challenge to the denial of a habeas corpus petition—it was not initiated as a

3 Qt> 1

Additional material
from this filing is
available in the
Clerk's Office.

